        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Audit Report
The Department of Energy's
Appliance and Equipment
Standards Program




OAS-M-13-05                         August 2013
                                  Department of Energy
                                    Washington, DC 20585

                                         August 16, 2013

MEMORANDUM FOR THE ASSISTANT SECRETARY FOR ENERGY EFFICIENCY AND
               RENEWABLE ENERGY


FROM:                    Rickey R. Hass
                         Deputy Inspector General
                           for Audits and Inspections
                         Office of Inspector General

SUBJECT:                 INFORMATION: Audit Report on "The Department of Energy's
                         Appliance and Equipment Standards Program"

BACKGROUND

The Energy Policy and Conservation Act of 1975 established a national-level energy
conservation program for major appliances and called for setting efficiency targets. This Act,
along with subsequent Acts, established mandatory energy efficiency and water conservation
standards (minimum standards) for 42 residential and 24 commercial products and equipment,
such as faucets, refrigerators and electric motors. Products sold in the U.S. must consume no
more than the amount of energy or water allowed by Federal standards. By 2030, the
Department of Energy (Department) anticipates that the minimum standards will result in $1.6
trillion in cumulative operating cost savings for energy users in the U.S. and a reduction of 6.5
billion tons of carbon dioxide emissions.

The Department's Appliance and Equipment Standards Program (Standards Program) is tasked
with administering these statutory requirements. Through a rulemaking process, the Standards
Program is responsible for setting mandatory minimum standards and establishing test
procedures for measuring energy efficiency and water conservation. To ensure compliance,
manufacturers must certify that products adhered to the minimum standards and were tested in
accordance with the Department's test procedures. In 2010, the Department established the
Office of Enforcement, within the Office of General Counsel, to enforce manufacturers'
compliance with minimum standards and certification requirements. The Department can take
enforcement actions and assess civil penalties against manufacturers if products are not properly
certified and/or fail to meet minimum standards. Since 2010, the Office of Enforcement has
collected $5.6 million in penalties from manufacturers for noncompliance with minimum
standards and certification requirements.

We initiated this audit to determine whether the Department was effectively managing its
responsibilities related to the minimum standards.

RESULTS OF AUDIT

Our audit found opportunities for improvement in the administration of the Standards Program.
Specifically, we found the Department had not always ensured manufacturers:
                                               2


    • Certified products to meet the minimum standards as required by Federal regulations.
      Specifically, 23 of the 309 (7 percent) residential products we judgmentally sampled for
      certification compliance from a large home improvement store's website were not
      certified. Department officials were unaware that the products included in our sample
      had not been certified. Manufacturers' failures to certify products were not detected by
      the Department because it lacked policies and procedures to periodically survey the
      marketplace to ensure that available products were properly certified. Department
      officials informed us that they had occasionally sampled products in the marketplace and
      verified they were appropriately certified; however, we could not validate the adequacy
      of these efforts because the Department had not maintained supporting documentation.

    • Annually re-certified products as required by Federal regulations. Specifically, 6
      of the 146 (4 percent) products we judgmentally sampled from the Department's online
      certification system were not properly re-certified. These certification lapses were not
      detected by the Department because it had not established procedures and had no
      automated or manual checks in place to verify compliance with the annual re-certification
      requirement. Additionally, Department officials stated that due to competing priorities
      and limited resources, they had not proactively pursued re-certification violations.

Additionally, the Department could not demonstrate that it had provided adequate oversight of
the Manufacturer Impact Analysis, a key work-product used by program officials to develop and
set minimum standards. The analysis, prepared by contractors in response to Departmental
tasking, was used to assess the financial and employment impacts of new minimum standards on
manufacturers. Although Department officials informed us that they reviewed the analysis for
reasonableness based upon their knowledge and experience, and by surveying publicly available
information, the Department lacked a process for documenting its oversight. As a result, we
were unable to develop conclusions regarding the completeness and accuracy of that work and
the impact the analysis may have on the minimum standards. The Department, however, noted
the public comment process for each rulemaking is a mitigating control for the lack of
documentation of its review of the Manufacturer Impact Analysis in that concerns regarding this
analysis should be disclosed and resolved through the rulemaking process.

We also noted that the Department had not met many of its legislative deadlines for the
establishment of test procedures and minimum standards. Specifically, in reviewing the
legislative deadlines for 21 rulemakings between March 2009 and January 2013, we found 8 test
procedures rulemakings and 8 standards rulemakings were on average 1 year late. According to
Department officials, factors outside of its control, such as the technical complexity of the
rulemakings, lack of prior regulations for products, pending changes to industry standards, and
interagency reviews, contributed to these delays. The Department was aware of these delays and
told us that it had taken steps to improve the rulemaking process. For example, program officials
established a detailed master schedule to monitor the progress of rulemakings. The program
officials also involved stakeholders, such as manufacturers and advocacy groups, earlier in the
process and conducted upfront research prior to the commencement of rulemakings to identify
and mitigate significant issues.

The Department had taken a number of positive steps to administer and enforce the Standards
Program. In recent years, it developed an online system for collecting product certifications,
worked to streamline its rulemaking process, and created an enforcement program. However, if
                                               3


uncorrected, the problems we identified may result in consumers purchasing products that do not
meet the minimum efficiency standards, and may limit the Department's ability to achieve
anticipated energy and carbon dioxide emissions savings. As a result of our audit, the
Department initiated actions to address the 23 uncertified products and 6 products that had not
been re-certified by either establishing a new enforcement case or addressing the uncertified
products through existing enforcement cases. As of January 2013, the Department had
completed enforcement actions on three of the products we referred to it for enforcement and
assessed penalties totaling $24,000.

To address the issues we identified, we made recommendations to improve the Standards
Program.

MANAGEMENT REACTION

Management concurred with our recommendations and reported that it had initiated corrective
actions.

The comments from management are discussed in more detail in the body of the report, and are
included in Appendix 3.

AUDITOR COMMENTS

The Department's corrective actions, planned and taken, are responsive to our recommendations.

Attachment

cc: Deputy Secretary
    Acting Under Secretary of Energy
    Chief of Staff
REPORT ON THE DEPARTMENT OF ENERGY'S APPLIANCE AND
EQUIPMENT STANDARDS PROGRAM

TABLE OF
CONTENTS

Appliance and Equipment Standards Program

Details of Finding ..................................................................................................................1

Recommendations and Management Reaction ......................................................................4

Auditor Comments .................................................................................................................5


Appendices

1. Objective, Scope and Methodology .................................................................................6

2. Related Reports ................................................................................................................8

3. Management Comments ..................................................................................................11
THE DEPARTMENT OF ENERGY'S APPLIANCE AND EQUIPMENT
STANDARDS PROGRAM
Background

The Energy Policy and Conservation Act of 1975 established a national-level energy
conservation program for major appliances and called for setting efficiency targets. This Act,
along with subsequent Acts, established mandatory energy efficiency and water conservation
standards (minimum standards) for 42 residential and 24 commercial products and equipment,
such as faucets, refrigerators and electric motors. Products sold in the U.S. must consume no
more than the amount of energy or water allowed by Federal standards. By 2030, the
Department of Energy (Department) anticipates that the minimum standards will result in $1.6
trillion in cumulative operating cost savings for energy users in the U.S. and a reduction of 6.5
billion tons of carbon dioxide emissions.

The Department's Appliance and Equipment Standards Program (Standards Program), part of the
Energy Efficiency and Renewable Energy Building Technologies Program, is tasked with
administering these statutory requirements. Through a rulemaking process, the Standards
Program is responsible for setting mandatory minimum standards. Additionally, the Standards
Program prescribes the test procedures that manufacturers must follow to assess whether
products meet the minimum standards. In 2005, the Department was sued for failure to comply
with legislative deadlines in setting minimum standards or test procedures for 22 product
categories, and as a result, the court issued a consent decree requiring the Department to meet
newly set deadlines. The Department subsequently met deadlines outlined in the consent decree.

To ensure compliance, manufacturers must certify adherence with Federal requirements.
Specifically, manufacturers are required to record the test results of at least two units of each
product and sign a compliance statement attesting that the products meet the minimum standards
and were tested in accordance with the Department's test procedures. Additionally,
manufacturers are required to re-certify compliance on an annual basis. All certifications are
electronically submitted to the Department through its online Compliance and Certification
Management System.

In 2010, the Department established the Office of Enforcement, within the Office of General
Counsel, to enforce manufacturers' compliance with minimum standards and certification
requirements. The Department can take enforcement actions and assess civil penalties against a
manufacturer if a product is not properly certified and/or fails to meet minimum standards. Since
2010, the Office of Enforcement has collected $5.6 million in penalties from manufacturers for
noncompliance with minimum standards and certification requirements.

Given the significance of the Standards Program on energy savings, we initiated this audit to
determine whether the Department was effectively managing its responsibilities related to the
minimum standards.

Opportunities for Improvement in Program Administration

Opportunities exist for improving the Department's administration of the Standards Program.
Specifically, we found that the Department had not always ensured that manufacturers provided


Page 1                                                                         Details of Finding
______________________________________________________________________

required certifications that products met the minimum standards or had complied with the annual
re-certification requirement. Additionally, the Department had not documented its oversight of
the contractor-prepared Manufacturer Impact Analysis, a key component used to set the
minimum standards. Finally, although the Department had met the deadlines established in the
consent decree, the Department had fallen behind schedule in meeting legislative deadlines for
establishing rulemakings for test procedures and minimum standards.

                            Product Certification and Re-Certification

The Department had not always ensured that manufacturers certified that their products met the
minimum standards, as required. Although Federal regulations (10 CFR 429.12) require
manufacturers to certify and re-certify annually that products meet the minimum standards prior
to distribution in the U.S., we identified instances in which manufacturers did not comply.
Department officials were unaware of the uncertified products identified in our sample.
As part of our audit, we sampled products to determine whether manufacturers met certification
and re-certification requirements. Our evaluation of those samples revealed that:

   •   Seven percent of the products in our sample testing certification compliance had not been
       certified in the Department's online certification system. We judgmentally selected 309
       residential products from a large home improvement store's website and found 23 were
       not certified.

   •   Four percent of the products in our sample testing re-certification compliance had not met
       the annual re-certification requirement stipulated in Federal regulations. We
       judgmentally sampled 146 products certified in the system and found 6 had not met the
       re-certification requirement.

The lack of required certifications and re-certifications by manufacturers increased the risk that
products sold to consumers do not meet the required minimum efficiency standards.

                            Certification and Re-Certification Controls

The existence of the uncertified products had not been detected by the Department because it
lacked policies and procedures to periodically survey the marketplace to ensure that available
products were properly certified in its online system. Department officials informed us that they
had occasionally sampled products in the marketplace and verified that these products were
appropriately certified; however, we could not validate the adequacy of these efforts because the
Department had not maintained supporting documentation. Specifically, it had not documented
the results of its survey or the sampling methodology, including the quantity and types of
products sampled.

Additionally, the Department did not detect that manufacturers had not re-certified products
because it had not established procedures, and had no automated or manual checks in place to
verify compliance with the annual re-certification requirement. Department officials stated that
due to competing priorities and limited resources, they had not proactively pursued re-
certification violations in the past. However, officials stated that they intend to establish an

Page 2                                                                          Details of Finding
______________________________________________________________________

automated control to identify manufacturers that have not re-certified products. Without
adequate controls to ensure proper certification and re-certification, the Department may not
achieve the anticipated cost savings and reduction of carbon dioxide emissions expected from the
Standards Program. As a result of our audit, the Department initiated actions to address the 23
uncertified products, and the 6 products that had not been re-certified by either establishing a
new enforcement case or addressing the uncertified products through existing enforcement cases.
According to Federal regulations, the Department can assess penalties of up to $200 per day for
each basic model not certified or re-certified by manufacturers. As of January 2013, the
Department had completed enforcement actions on three of the products we referred to it for
enforcement and assessed penalties totaling $24,000.

                       Quality Assurance Review of Contractor Analysis

The Department could not demonstrate its oversight of the contractor-prepared Manufacturer
Impact Analysis, a key component used to set the minimum standards. This occurred because
the Department lacked a process for documenting its oversight. The purpose of the
Manufacturer Impact Analysis is to assess the financial and employment impacts of new
minimum standards on manufacturers. In the development of the Manufacturer Impact Analysis,
the contractor considers publicly available information, such as financial statements, as well as
proprietary information. The proprietary information includes the effects of amended energy
conservation on manufacturers' revenues and finances, direct employment, capital assets, and
industry competitiveness. The proprietary information is obtained primarily during private
interviews between manufacturers and the contractor. Program officials informed us that
manufacturers are willing to share proprietary information with the contractor under non-
disclosure agreements and would not provide that information to the Federal government directly
due to confidentiality concerns. The Department believes its contractor's ability to obtain this
information is invaluable and results in better data on which to base minimum standards.

Although the Department had not obtained and reviewed all the information included in the
Manufacturer Impact Analysis, program officials informed us they had reviewed the analysis for
reasonableness based upon their knowledge and experience, and by surveying publicly available
information. However, the Department had not documented its review. As each rule must also
go to the public for comment, the Department believes this process is a mitigating control for the
lack of documentation of its review of the Manufacturer Impact Analysis in that concerns
regarding this analysis should be disclosed and resolved through the rulemaking process.

Given that the Manufacturer Impact Analysis is an essential component used in setting the
minimum standards and a portion of it is confidential, it is important that the Department
document its efforts to validate the information included. Documentation of oversight would
provide assurance to third-parties of the quality and soundness of the analysis.

The Standards for Internal Controls in the Federal Government published by the U.S.
Government Accountability Office require all transactions and other significant events to be
clearly documented, and that such documentation be readily available for examination.
Additionally, all documentation and records are to be properly managed and maintained. In the



Page 3                                                                        Details of Finding
______________________________________________________________________

absence of such documentation, we were unable to develop conclusions about the completeness
and accuracy of the contractor's work and the effect it may have on the minimum standards set
by the Department.

              Legislative Deadlines for Test Procedures and Minimum Standards

Although the Department had met the deadlines established in the consent decree, the
Department had fallen behind schedule in meeting other legislative deadlines for establishing
rulemakings for test procedures and minimum standards. Specifically, in reviewing the
legislative deadlines between March 2009 and January 2013, for 21 rulemakings, we found 8 test
procedures rulemakings and 8 standards rulemakings were on average 1 year late. However,
Department officials informed us that the delays were, in large part, out of the Department's
control, and the Department had made improvements to its own processes to meet the legislative
deadlines.

Department officials informed us that the technical complexity of the rulemakings, lack of prior
regulations for products, pending changes to industry standards, and interagency reviews all
contributed to these delays. We noted that the Department was aware of these delays and had
taken steps to continually improve the rulemaking process in order to meet future deadlines. For
example, the Department established a detailed master schedule to monitor the progress of
rulemakings. Additionally, the Department involved stakeholders, such as manufacturers and
advocacy groups, earlier in the process and conducted upfront research prior to the
commencement of rulemakings to identify and mitigate significant issues.

RECOMMENDATIONS
If uncorrected, the problems we identified may result in consumers purchasing products that do
not meet the minimum efficiency standards and may limit the Department's ability to achieve
anticipated energy and carbon dioxide emissions savings. To address the problems outlined in
our report, we recommend that the Assistant Secretary for Energy Efficiency and Renewable
Energy, direct the Appliance and Equipment Standards Program Manager to:

   1. Develop policies and procedures for verifying product certification;

   2. Implement an automated control in the Standards Program's certification system to verify
      annual re-certification by manufacturers;

   3. Document oversight of the contractor-prepared Manufacturer Impact Analysis; and

   4. Continue to monitor the legislative deadlines for the test procedure and minimum
      standards rulemakings.

MANAGEMENT REACTION

Department officials concurred with our recommendations and have been working with the
Standards Program to ensure all corrective actions are implemented. The Standards Program has
begun development of a system that will identify uncertified products in the marketplace. The

Page 4                                      Recommendations and Management Reaction
______________________________________________________________________

system is in the trial phase and the Department expects to phase it in over the next year. The
Department is also adding a feature to the certification system to verify required annual re-
certifications. It expects the feature to be operational by the end of 2013. Further, the
Department has developed and disseminated a formal process for increased oversight of the
Manufacturer Impact Analysis. Lastly, the Standards Program has initiated actions to improve
the timeliness of the rulemaking process. Specifically, test procedures rulemakings will now be
initiated a full 3 years before the statutory deadline to build in the time needed for thorough
product testing and review. Additionally, the Department has initiated actions to better
coordinate rulemakings with the Office of Management Budget.

AUDITOR COMMENTS

The Department's corrective actions, planned and taken, are responsive to our recommendations.
Management's comments are included in Appendix 3.




Page 5                                                                    Auditor Comments
Appendix 1

OBJECTIVE

The objective of the audit was to determine whether the Department of Energy (Department) was
effectively managing its Appliance and Equipment Standards Program (Standards Program).

SCOPE

The audit was performed between June 2012 and June 2013, at Department Headquarters in
Washington, DC.

METHODOLOGY

To accomplish our objective, we:

    • Obtained and reviewed laws and regulations related to the Standards Program.

    • Interviewed key program officials to obtain an understanding of the program, the
      enforcement activities in place and the quality assurance activities of contractor-prepared
      work.

    • Reviewed prior Office of Inspector General and U.S. Government Accountability Office
      reports.

    • Selected a judgmental sample of 309 products from 5 product categories to determine
      whether manufacturers had certified that their products met the energy efficiency and
      water conservation standards (minimum standards). Specifically, we selected 5
      commonly-used product categories from the 42 residential products covered under the
      Standards Program and conducted internet searches on a large retail store's website to
      select our sample. Because we did not select a statistical sample, we cannot project our
      results to the population of products on the market.

    • Selected 146 of the 309 products judgmentally sampled above to determine whether
      manufacturers had annually re-certified that products met the minimum standards. We
      only included those product categories with annual re-certification deadlines that had
      passed at the time of our audit. Because we did not select a statistical sample, we cannot
      project our results to the population of products certified in the online system.

    • Analyzed the rulemaking schedule for compliance with legislative deadlines.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe the evidence obtained provides a reasonable basis for
our conclusions based on our audit objective. Accordingly, the audit included tests of controls
and compliance with laws and regulations to the extent necessary to satisfy the objective. In
particular, we assessed the implementation of the GPRA Modernization Act of 2010 as it relates

Page 6                                                    Objective, Scope and Methodology
Appendix 1 (continued)

to the audit objective and found that the Department had established performance measures
related to the Standards Program. Because our review was limited, it would not necessarily have
disclosed all internal control deficiencies that may have existed at the time of our audit. Finally,
we conducted an assessment of computer-processed data relevant to our audit objective and
found it to be reliable.

An exit conference was held with management on August 7, 2013.




Page 7                                                      Objective, Scope and Methodology
Appendix 2

                                   RELATED REPORTS

Office of Inspector General

    • Audit Report on The Department's Management of the ENERGY STAR Program
      (DOE/IG-0827, October 2009). The Department of Energy (Department) had not
      implemented the actions it announced in 2007 to strengthen the ENERGY STAR
      Program. Officials had not: (1) developed a formal quality assurance program to help
      ensure that product specifications were adhered to; (2) effectively monitored the use of
      the ENERGY STAR label to ensure that only qualifying products were labeled as
      compliant; and (3) formalized procedures for establishing and revising product
      specifications and for documenting decisions regarding those specifications. The delay in
      the Department's planned improvements in its management of the ENERGY STAR
      Program could reduce consumer confidence in the integrity of the ENERGY STAR label,
      and diminish the value of the recent infusion of $300 million for ENERGY STAR rebates
      under the American Recovery and Reinvestment Act of 2009.

Government Accountability Office

    • Report on Energy Efficiency: Better Coordination among Federal Programs Needed to
      Allocate Testing Resources (GAO-13-135, March 2013). The U.S. Government
      Accountability Office (GAO) looked at three programs related to encouraging energy
      efficiency in household appliances and consumer electronics sold in the U.S.: (1) Federal
      minimum efficiency standards, led by the Department; (2) EnergyGuide, which requires
      product labeling and is led by the Federal Trade Commission (FTC); and (3) Energy Star,
      a voluntary labeling program led by the U.S. Environmental Protection Agency (EPA) –
      for duplication of efforts. It identified duplication between the Department and EPA as
      both manage separate verification testing programs to make sure products meet the
      Energy Star label requirements. GAO identified 11 instances in which the same model
      had been tested twice in 1 year.

    • Review on Department of Energy: Energy Conservation Program: Energy
      Conservation Standards for Fluorescent Lamp Ballasts (B-322815, December 2011).
      GAO assessed the Department's compliance with the procedural steps required by section
      801(a)(1)(B) of title 5, United States Code, in establishing a rule entitled Energy
      Conservation Program: Energy Conservation Standards for Fluorescent Lamp Ballast.
      GAO found that procedural steps taken indicate, with exception of the 60-day delay in
      effective date, the Department complied with the applicable requirements.

    • Review on Department of Energy: Energy Conservation Program: Energy
      Conservation Standards for Residential Refrigerators, Refrigerator-Freezers, and
      Freezers (B-322512, October 2011). GAO assessed the Department's compliance with
      the procedural steps required by section 801(a)(1)(B) of title 5, United States Code, in
      establishing a rule entitled Energy Conservation Program: Energy Conservation
      Standards for Residential Refrigerators, Refrigerator-Freezers, and Freezers. GAO


Page 8                                                                        Related Reports
Appendix 2 (continued)

     found that procedural steps taken indicate, with exception of the 60-day delay in effective
     date, the Department complied with the applicable requirements.

   • Review on Department of Energy: Energy Conservation Program: Energy
     Conservation Standards for Residential Furnaces and Residential Central Air
     Conditioners and Heat Pumps (B-322279, August 2011). GAO assessed the
     Department's compliance with the procedural steps required by section 801(a)(1)(B) of
     title 5, United States Code, in establishing a rule entitled Energy Conservation Program:
     Energy Conservation Standards for Residential Furnaces and Residential Central Air
     Conditioners and Heat Pumps. GAO found that the Department complied with the
     applicable requirements.

   • Review on Department of Energy: Energy Conservation Program: Energy
     Conservation Standards for Residential Clothes Dryer and Room Air Conditioners (B-
     321902, May 2011). GAO assessed the Department's compliance with the procedural
     steps required by section 801(a)(1)(B) of title 5, United States Code, in establishing a rule
     entitled Energy Conservation Program: Energy Conservation Standards for Residential
     Clothes Dryer and Room Air Conditioners. GAO found that the Department complied
     with the applicable requirements.

   • Review on Department of Energy: Energy Conservation Program: Energy
     Conservation Standards for Small Electric Motors (B-319524, April 2010). GAO
     assessed the Department's compliance with the procedural steps required by section
     801(a)(1)(B) of title 5, United States Code, in establishing a rule entitled Energy
     Conservation Program: Energy Conservation Standards for Small Electric Motors.
     GAO found that with the exception of the effective date, the Department complied with
     the applicable requirements.

   • Investigation Report on ENERGY STAR PROGRAM – Covert Testing Shows the Energy
     Star Program Certification Process Is Vulnerable to Fraud and Abuse (GAO-10-470,
     March 2010). GAO reported Energy Star is for the most part a self-certification program
     vulnerable to fraud and abuse. Specifically, GAO obtained certifications for 15 bogus
     products, including a gas-powered alarm clock.

   • Audit Report on ENERGY EFFICIENCY – Opportunities Exist for Federal Agencies to
     Better Inform Household Consumers (GAO-07-1162, September 2007). GAO reported
     that opportunities existed for the EnergyGuide to improve how it provided information to
     help consumers improve their households' energy efficiency and decrease energy
     consumption nationally. Specifically, GAO found that although the Department, in
     consultation with the FTC, is required to study new products to determine if any products
     should be added to the EnergyGuide label, such a study had not been completed in 10
     years. Further, it found that the FTC and the Department had not measured the
     effectiveness, costs of the EnergyGuide, and the energy savings of the program.




Page 9                                                                         Related Reports
Appendix 2 (continued)

   • Audit Report on ENERGY EFFICIENCY – Long-Standing Problems with DOE's
     Program for Setting Efficiency Standards Continue to Result in Forgone Energy Savings
     (GAO-07-42, January 2007). GAO examined the extent to which the Department met its
     obligations to issue rules on minimum energy efficiency standards for consumer products
     and industrial equipment and whether clearing the backlog will be effective or can be
     improved. GAO found that the Department missed all 34 congressional deadlines for
     setting energy efficiency standards for the 20 product categories with statutory deadlines
     that had passed. Further, GAO reported the Department's plan to bring the standards up
     to date by 2011 lacked critical elements of an effective project management plan.




Page 10                                                                      Related Reports
Appendix 3

             MANAGEMENT COMMENTS




Page 11                            Management Comments
Appendix 3 (continued)




Page 12                  Management Comments
Appendix 3 (continued)




Page 13                  Management Comments
                                                                    IG Report No. OAS-M-13-05

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report that would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                         http://energy.gov/ig

      Your comments would be appreciated and can be provided on the Customer Response Form.
